           U.S. Department of
                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Termination Notification:               Date:    December 27, 2011
           FTA’s Oversight of Grantees’ American Recovery
           and Reinvestment Act Contract Award and
           Administration Practices
           Project No: 11U3007Z000

  From:    Mary Kay Langan-Feirson                                 Reply to    JA-60
                                                                   Attn. of:
           Assistant Inspector General for
            Acquisition and Procurement Audits

    To:    Federal Transit Administrator

           On June 9, 2011, the Office of Inspector General (OIG) initiated an audit to evaluate the
           Federal Transit Administration’s (FTA) oversight of grantees’ American Recovery and
           Reinvestment Act (AR RA) contract award an d administration practices. The announced
           objectives were to determine whether FTA’s oversight of transit agencies’ ARRA
           construction and renovation grants is sufficient to ensure (1) that grantees’ contract award
           and administration practices comply with laws, regulations, policies, and procedures; and
           (2) that grantees achieve the cost, schedule, and performance goals of their ARRA-
           funded infrastructure investments.

           At this time, we are terminating this audit to address a congressional request. However,
           we will likel y re-announce the audit at a lat er date, given our commitment to ARRA
           oversight. We will notify you of our future intent to initiate an audit of this area.

           We appreciate the courtesies and cooperation of FTA representatives during our au dit. If
           you have any questions, please do no t hesitate to call me at (202) 366-5225, or Ken
           Prather, Program Director, (202) 366-1820.

           cc:        Angela Dluger, FTA Audit Liaison
                      Martin Gertel, M-1
